 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERAL





MEDICAID AND HOMELESS INDIVIDUALS





           V1C.

                  Richard P. Kusserow
                  INSPECfOR GENERA

           cIa        JANARY 199
                        OFFCE OF INSPECfOR GENERA


The mission of the Offce    of Inspector General (OIG), as mandated by Public Law 95- 452
as amended , is to protect the integrity of the Department of Health and Human Services
(HHS) programs as well as the health and welfare of beneficiaries served by those programs.
This statutory mission is carried out through a nationwide network of audits , investigations
and inspections conducted by three OIG operating components: the Offce of Audit
Servces , the Office of Investigations , and the Office of Evaluation and Inspections. The
OIG also informs the Secretary of HHS of program and management problems and
recommends courses to correct them.

                           OFFICE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS. programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to      reduce waste ,   abuse , and
mismanagement and to promote economy and efficiency throughout the Department.


                           OFFICE OF        INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

                 OFFICE OF EVALUATION AN INSPECfONS
The OIG' s   Offce of Evaluation and   Inspections (GEl) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,   and the public. The findings and recommendations contained in these
inspetion report generate rapid , accurate , and up- to- date information on the effciency,
vulnerabilty, and effectiveness of departmental programs.

This report was prepared under the direction of William C. Moran , Regional Inspector
General , Office of Evaluation and Inspections and Natalie Coen , Deputy Regional Inspector
General , Offce of Evaluation and Inspections, Region V. Participating in this project were
the following people:


Chcago. IL                             New York. NY                  Headquars
Barbara K. Butz (Project Leader)       Demetra Arapakos              Emile B. Baebel
Pamela S. May                                                        Susan E. Hardwick
Jennifer Antico                                                      W. Mark Krhat
Kate McFadden
 Department of Health and Human Servces
         OFFICE OF

    INSPECTOR GENERAL





MEDICAID AND HOMELESS INDIVIDUALS





             V1C'

                    Richard P. Kusserow
                    INSPECfOR GENERA

        '.(~cIa         OEI-05-91-03
               EXECUTIVE SUMMAR 

PUROSE
This inspection examined how Medicaid is used to serve homeless individuals with
mental health , alcohol , or other drug problems.

BACKGROUN
Recent research suggests that approximately one- third of an estimated 600 000
homeless population are severely mentally il , at least 40 percent have problems with
alcohol , and an additional 10 percent abuse other drugs. In addition , it is estimated
that at least one- half of the homeless mentally il population also have alcohol
other drug problems.



The Department s response to homelessness is through both targeted and
mainstream programs. The 1987 Stewart B. McKinney Act is the Federal
Government s major targeted response to the homeless. Medicaid is one of the
Department' s largest mainstream programs that could serve the homeless. It
provides reimbursement for health servces , which can include mental health and
substance abuse servces , for the poor , including the homeless.

There is a lack of consistent , reliable data on Federal or State share Medicaid
expenditures for either mental health or substance abuse servces for the homeless.
However, the Medicaid Director estimates that overall , Medicaid spends $200 milion
(Federal/State) annually in assistance for the homeless.

SCPE AN MEllODOLOY
Along with Medicaid , we looked at the Supplemental Security Income program (SSI)
and the Al ohol , Drug Abuse , and Mental Health Servces (ADMS) block grant in
this study. The issues examined were the availabilty, accessibilty and
appropriateness of these programs for this population. We spoke with 298
respondents in 10 States: California , Hawaii , Ilinois , Ohio , Oregon , Maryland
Missouri , New Jersey, New York and Texas. They included: 224 ADMS grantees (95
mental health, 129 substance abuse), 33 McKinney- funded providers , persons from 25
Social Security district offces , and 16 State Medicaid staff.

FIINGS
Medaid is import           provi
                      because it        prry car and seres in genaL
                                         acces to
It also   wi acces to mel helt or sustae abuse seres.
 Nea two-th of th ADMS
 resOUe for th
                            gr th th
                    me helt gr
                                            are Medaid-reiur Medaid is a greate
                                                                      gr.
                                                                  in
                                                    sustance abuse

 Prvi peeie a diri betwee th nuer of homele                                     who are
 eligile for Medaid an      th nuer who       actull receie

  Th    cloe ti   betwee Medaid and SSI
 Medai for homele inls
                                             eligiil in
                                       partrl drg adts
                                                           mot State ma   li
                                                                     alcoholi.
                                                                                 acces to


                                 in
                                                                an

 Prvi say tht homele                       face nuus       prble accesg         Medaid tht
 th cant overome by thelves.

                        gres                                    Medaid me         helt
 gr
 A majori of ADMS
           are more   li       help th homele
                         to help th suste abuse            gr.
                                                    apply for




 McKi gres sugges              many ways in whih proble in accesg Medaid for
 homele     inls        can be overome.

  The is li eve             of   gover inties whih hae ma Medaid more
. availle    accesle or apprprite for homele        inls.
  RECOMMNDATIONS

  We are asking Health Care Financing Administration (HCFA) to take several actions
  to support the following efforts to expand access to Medicaid for homeless
  individuals: (1) Departmental and inter- Departmental initiatives to increase servces
  for homeless individuals; (2) the development of similar initiatives by States; and (3)
  the development of special strategies by local providers. Specifically, we recommend
  that HCFA take these actions:

  Work   wi th So       Sec Admtrtin (SSA) to deelop a join strte
  ineae acces to Medai for eligile homele           inls.
  home      in
  Cons wi th Puli Hea See
                        apply for
                                         (PHS) and SSA to deelop mols to help
                                    Medaid Diemte the mols wily to prvi.
 Prvi tehnal ase                 to State, to promote th   deelopm of State      stte and
  liges degn to us Medaid more efectiely to sere th                  poputin.

  Use   th Intgen Coun on th Homele to provi technal asnce to oth
 Fed agen an McKi provi to enourge SP           stte
 formlige to make Medaid more accesle to homele inls.
                                                     an prmote
COMM
HCF A, SSA and the Assistant Secretary for Planning and Evaluation commented on
this report; the full text of their comments is in Appendix C. They generally agreed
with our findings and recommendations. We also received comments from PHS
staff. We made several changes in response to the suggestions we received.
thank all those who commented on this report.
                                                                                                                                                                  . . . . . . . ............................................
               .. .. .. .. ... ... ................................................................................................................................................................................................................ ... ... ... ... ... ... ... .. ..




                                    TABLE                                                                                           CONTENTS

                                                                                                                                                                                                                                                                            PAGE
 EXECU SUMY

 INODUCfON 

     Purpose

     Scope

     Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

     Methodology

FImGS
Providers say that Medicaid is important because it provides access to
primary care , and to servces in general. It also widens access to
mental health or substance abuse servces



Nearly two- thirds
                 of the ADMS grantees are Medicaid-reimbursed.
Medicaid is a greater resource for the mental health grantees than
the substance abuse grantees



Providers perceive a disparity between the number of homeless
individuals who are eligible for Medicaid and the number who
actually receive it . . .

The close tie between Medicaid and SSI eligibilty in most States may
limit access to Medicaid for homeless individuals , particularly drug
addicts and alcoholics. . . . . . . . . .

Providers say that homeless individuals face numerous problems accessing
Medicaid that they cannot overcome by themselves

A majority of ADMS grantees help the homeless apply for Medicaid;
mental health grantees are more likely to help than substance abuse grantees

McKinney grantees suggested many ways in which problems in accessing
Medicaid for homeless individuals can be overcome

There is limited evidence of government initiatives which have made
Medicaid more available , accessible , or appropriate for
homeless individuals
                             .......................................

                   TABLE OF CONTENTS

                                                                                                  PAGE

RECOMMENDATIONS

APPENDIX A: Methodology           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A­


APPENDIX B: Data Verification Sheet . . . . . . . . . . . . . . . . . . . . . . . . . . .. B­

APPENDIX C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C­
                           INTRODUCTION

PUROSE
This inspection examined how Medicaid is used to serve homeless individuals with
mental health , alcohol , or other drug problems.

SCPE
The number of homeless in the United States is not known. The Urban Institute
estimated in 1988 that between 567 000 and 600 000 are homeless in the U. S. on any
given night. In March , the U. S. Census Bureau counted 178 828 persons in
emergency shelters and 49 793 persons at pre- identified street locations; however
they acknowledge that this is an undercount.

Recent research suggests that approximately one- third of an estimated 600 000
homeless population are severely mentally il , at least 40 percent have problems with
alcohol , and an additional 10 percent abuse other drugs. In addition , it is estimated
that at least one- half of the homeless mentally il population also have alcohol or
other drug problems; we refer to such persons as the " dually diagnosed" in this
report. This study focused on        homeless individuals (as opposed to familes) with
these problems; the terms " the       homeless " or " homeless individuals " in the report
refer strictly to this population.

Federal efforts to assist the homeless are two- pronged: (1) specially targeted
programs directed at the homeless population , and (2) mainstream programs that
serve the homeless as a portion of their servce population. The major Federal
targeted response is the 1987 Stewart B. McKinney Act , funded for fiscal year (FY)
1991 at $682.3 millon. A 1990 study by the Office of Inspector General found that
while McKinney programs have helped meet emergency needs , respondents did not
view McKinney as the long- term solution to homelessness; rather , they advocated
greater Federal and State efforts through on- going, mainstream programs.

This inspection looked at three major mainstream programs in the Department which
could serve homeless individuals: Medicaid , the Alcohol , Drug Abuse , and Mental
Health Servces (ADMS) block grant , and Supplemental Security Income (SSI). This
report presents findings concerning Medicaid. Two separate reports present findings
related to the ADMS block grant and SSI.

We examined the availabilty, accessibilty and appropriateness of each of these
mainstream programs for homeless individuals. " Availabilty " means whether a
program or servce exists in an agency or community and homeless individuals are
eligible for it. " Accessibilty" refers to the ease or difficulty homeless individuals have
in finding and utilzing available servces. "Appropriateness " refers to whether
available , accessible servces match the homeless client s needs in a broad sense.

BACKGROUN
Medicaid is one of the Department' s largest mainstream programs which could assist
homeless individuals. The Health Care Financing Administration (HCF A) is
responsible for Federal oversight of the program. A Federal- State jointly financed
program which is administered by the States , Medicaid provides reimbursement for
health servces , which can include mental health and substance abuse servces , for the
poor , including the homeless. In 1989 , 24 milion people were served at a combined
Federal/State outlay of $54. 5 bilion; the Federal portion of Medicaid expenses
nationally was 56 percent. The Medicaid Director estimates that Medicaid spends
$200 millon annually (Federal/State) in assistance for the homeless.

Homeless individuals may apply for Medicaid directly with the appropriate State
agency. For many, however , eligibilty is primarily through SSI , where they must
qualify as aged , blind , or disabled. Section 1634 of the Social Security Act allows
States to contract to have the Social Security Administration (SSA) make Medicaid
eligibilty determinations; in such States , the SSI application also serves as the
Medicaid application. Thirty- two States have adopted this process. In seven States
those eligible for SSI are also eligible for Medicaid but they must apply separately.
In 12 States , both eligibilty criteria and the application process are separate for each
program.

States may also cover homeless individuals as " medically needy. "
                                                                 In addition , States
may have State-only programs to provide medical assistance to specified poor people
including the homeless , who do not qualify for Medicaid; matching Federal funds are
not provided for such programs.



States may not impose residency requirements on individuals without permanent
addresses as a condition of eligibilty, and they must have a method for making
Medicaid cards available for those without a permanent address.

Any person who receives Medicaid is entitled to certain federally mandated core
servces such as inpatient and outpatient hospital servces , and physician servces.
States may also offer optional servces to enhance their response to the       homeless:
prescription drugs , out- patient clinic servces , targeted case management
rehabiltation servces , and a home and community- based servces waiver, which may
be targeted specifically to the chronically mentally il as an alternative to hospital
care. They could also use a model application form now being developed by HCF A
to specifically target the homeless , or develop a special " freedom of choice " waiver to
target the homeless with alcohol or drug problems.
The variation across States in terms of the tyesof mental health and substance
abuse servces covered , and the extent of coverage , is considerable. However , there
is one important provision that applies across the board: Medicaid does not cover
in- patient servces for people between the ages   of 22- 64
                                                          at institutions for mental
disease (IMDs): facilities of 16 or more beds with over 50 percent of the residents
classified as mentally il. Since both mental ilness and substance abuse are
categorized as mental diseases , this IMD exclusion pertains to drug addicts and
alcoholics who get Medicaid , as well as to the mentally il.

There is a lack of consistent , reliable data on expenditures (State or Federal share)
for either mental health or substance abuse servces for the homeless. However, it
appears that Medicaid is a meaningful source   of funding in the mental health arena.
In FY 1987 ,  according to the National Association of State Mental Health Program
Directors , $749 milion in Federal Medicaid dollars accounted for 8 percent of all
revenues directly controlled by State mental health agencies. They also estimate that
of all funds received by mental health organizations in the U. , 25 percent are from
Federal sources ,   including Medicaid.

Little is known about the extent of Medicaid coverage of substance abuse servces in
general. Neither law nor regulations specif substance abuse treatment as a

reimbursable Medicaid servce , although reimbursement is allowed if treatment is
provided under an approved servce category.

The Omnibus Budget Reconcilation Act of 1990 included a provision that "
(Medicaid) servce (including counseling) shall be excluded from the definition of
 medical assistance ' solely because it is provided as a treatment servce for alcoholism
or drug dependency. " In August 1990, HCFA wrote all State Medicaid directors to
generally clarify its position on substance abuse treatment.

MEODOLOY
During pre- inspection we conducted an extensive review of literature , including
program de criptions , Federal legislation and regulations , and articles , reports and
research papers of all kinds. We also talked with persons at the Public Health
Servce (PHS), SSA, HCFA, the National Association of State Alcohol and Drug
Abuse Directors , the National Association of State Mental Health Program Directors
and other related associations; foundations; and experts. We spent two days with a
special mobile assessment unit in Chicago.

To collect data for the study, we reviewed portions of (1) the 1989 reports and 1990
plans for the ADMS block grant , and (2) the Medicaid plans , and summaries of the
plans , for the 10 States in our sample: California , Hawaii , Ilinois , Ohio , Oregon
Maryland , Missouri , New Jersey, New York, Texas.
We also spoke by telephone or in person to 298     respondents in these States.   There
were four tyes of   respondents:

      The executive directors or program directors of 224 ADMS mental health and
      substance abuse grantees. We discussed the inspection issues related to
      ADMS , Medicaid and SSI with them.

      Staff of 33 McKinney- funded Health Care for the Homeless (HCH) grantees
      and research demonstration grantees (mental health and substance abuse).
      We spoke to them about Medicaid and SSI. With their experience in servng
      this population, they should be particularly knowledgeable about these issues.
      For example ,HCH grantees have a mandate to refer clients to mainstream
      programs for benefits such as SSI and Medicaid , or for servces , such as those
      provided by ADMS grantees.

      Sixeen State Medicaid staff in the 10 States in the sample. We discussed
      questions raised through our review of State plans regarding State eligibilty
      criteria , servces , and activities related specifically to homeless individuals.

      Social Security staff in 25 district offices located in the same areas as the
      McKinney respondents. We spoke with them for their perceptions about            SSI
      and homeless individuals , to complement the perspectives of ADMS and
      McKinney respondents.

A detailed description of the methodology for this study is in Appendix A.
                                                      " "




                                 FINDINGS

Findig #1: Provders      say that Medcad is importt         beus it provdes accss to
priar cae, and to servces in genera. It        al widens acc to menta heath or
substace abus servce.
According to a quarter of the ADMS grantees and 6 of the 33 McKinney grantees
Medicaid is important because it contributes to stabilizing a person by helping meet
primary health care needs. Many respondents stressed that homeless individuals
greatly need such care , including dental care. A fifth of the ADMS mental health
grantees , and 36 percent of the substance abuse grantees , said that their homeless
clients differ from other clients in having " multiple chronic " or " serious " physical
problems. They called Medicaid a " cornerstone " or " step towards " rehabilitation in
this sense.



Slightly over two- thirds of ADMS and McKinney respondents said that Medicaid is
important in a solution to homelessness because it increases access to servces , or to
the servce system in general. A tyical comment was: " It gives them access to
servces they would not get otherwse. The more servces you access , the more
people you come into contact with who know about your problem and can help you
get back into the mainstream.



A majority also said that Medicaid helps increase access to mental health or
substance abuse servces for homeless individuals , although there was no consensus
about which tye of servce is made more accessible. There was notable agreement
that Medicaid (1) makes more servces , more diverse servces , or more private
providers available to the homeless , and (2) enables providers to accept more
patients. Every McKinney respondent mentioned one or both of         these points.


Despite this view, it is interesting that respondents were much more liely to think
Medicaid is important for providing access to the servce system , or for financing
priary health care, than for widening access to treatment. One reason could be
that they consider health care the most urgent need. Another could be that they see
problems in accssing treatment , even for those on Medicaid. Some of the problems
they mentioned are: (1) waiting lists or lack of beds , (2) too few treatment servces
(mental health and substance abuse , whether Medicaid-reimbursed or not), (3) too
few providers who accept Medicaid reimbursement, and (4) inadequate coverage of
servces they see as particularly important for this population: community-based or
residential treatment , outreach, or case management. In this vein , almost half of the
ADMS mental health grantees and a quarter of the substance abuse grantees
recommended expanded coverage of some sort to better serve this population.

Only a quarter or less of respondents said that Medicaid is not as important as other
resources in reaching a long- term solution. McKinney grantees were the most likely
to see it as a " band-aid " or much less important than housing, employment , or SSI.
A typical comment was: " You need so much else.

Findig #2:  Nearly two-thds of the ADMS grantees are Medicad-reimbured.
Medicad is a greater resource for the menta health grtees than the substace
abuse grantees.

Six- three percent of the 168 ADMS grantees we spoke with were receiving
Medicaid reimbursement last year. More of the mental health grantees (80 percent)
than the substance grantees (49 percent) were Medicaid-reimbursed. From
information they provided on their annual budgets and Medicaid reimbursement , we
estimate that nationally, for ADMS- funded grantees that serve the homeless
Medicaid constitutes 9. 1 percent of the total budget for mental health grantees and
  6 percent for substance abuse grantees. (Appendix A explains how this projection
was derived.

Finding #3: Providers perceive a disparty between the number of homeless
individual who are eligible for Medicad and the number who         act
                                                                   receive it.

Many providers , both ADMS and McKinney grantees , could not say how many of the
homeless individuals they serve are either eligible for or receive Medicaid (actually
have a " green card" ). They do not collect this information. We found this
particularly surprising of Health Care for the Homeless grantees; one of their
mandates is to help the homeless in obtaining entitlements such as Medicaid.

Only 16 percent of the ADMS respondents actually knew how many, or what
proportion , of the homeless individuals they serve are on Medicaid. Almost all
ADMS and McKinney respondents gave us an estimate , guess , or narrative response
such as " a lot" or " a few . Furthermore , their estimates were widely divergent , with
no apparent patterns by tye   of grantee or any other criterion.
Hence , we do not know from respondents how many homeless individuals are eligible
for or actually receive Medicaid. However , we can say that a majority perceive a
disparity. Of those who answered the question " How many of your homeless
individual clients are eligible for but do not receive Medicaid?" , three- quarters
estimated that half or more fell in this category.
Finding #4:    The close tie between Medicad and SSI eligibilty in most States may
lit accss     to Medicad for homeless indivdual , parcularly drg addict and
alcoholics.

In our review of State Medicaid plans , we found that homeless individuals are not
subject to eligibilty requirements or criteria different from those for other Medicaid
applicants in these States. However , our discussions with State officials highlighted
the strong relationship between eligibility for SSI and Medicaid. These officials
confirmed that homeless individuals are eligible for Medicaid in their States if they
are determined to be disabled based on the SSI definition of disability.

We found that five of these 10 States provide Medicaid automatically to individuals
who receive SSI. The other five apply the SSI disabilty criteria but use more
stringent income and resource eligibility criteria. In our related study on SSI and
homeless individuals , a fifth of the ADMS respondents said that none of the
homeless individuals they serve received SSI. Two- thirds said that less than 20
percent receive it. We therefore conclude that the tie between SSI and Medicaid
may serve to reduce access to Medicaid for homeless individuals.

Furthermore , Medicaid officials acknowledged that there are added diffculties for
people with an alcohol or other drug problems who try to get Medicaid. In six of
the 10 States , officials told us that individuals with strictly a substance abuse problem
might have more difficulty obtaining the disability determination necessary    to receive
Medicaid. They also noted that this group finds it especially difficult to provide the
documentation needed to prove eligibility.

We did not discuss Medicaid eligibility specifically with other respondents. However
in discussing the issue of accessing Medicaid , McKinney grantees named several
factors which , they believe , limit eligibilty for homeless individuals in their States.
These factors include: (1) criteria excluding individuals , or alcoholics or drug addicts;
(2) State cuts which have tightened or restricted Medicaid eligibilty    for individuals
as compared with women and children; (3) the close tie between Medicaid and SSI
which they say is very diffcult to get; (4) Medicaid workers who deny benefits on the
mistaken assumption that such individuals can work; and (5) " easier" eligibility
standards for the mentally il than alcoholics or drug addicts who , some believe , must
have a physical disabilty to qualify.
                                                                       , "




Findig #5: Provders       say that homeles indidua face numerous problems
accssing Medicad that they         caot overcome by themslves.
A strong majority of both ADMS (72 percent) and McKinney (30 of 33) providers
described problems that homeless individuals face when tryng to get on Medicaid.
Most of the McKinney respondents named multiple problems. The problems they
mentioI)ed are portrayed in Figure 





       Problems Accessing Medicaid

    as percent of those mentioning problems
        proC.18 too cOlIple:z

        Hmls don t understd
         Hrnls are Iranslent

              Documentation

                 Long waitl

              Difficult cl1ents

         Don t knoW' qaalily
            Don t want help
                                        10%   20%   30%     40%       50%     60%      70%
                                         ADMS grantee.    E: M   c:K:lnney gran tee.


    Many mentioned multiple problem.
Figure 1


As the reader will note , these problems are not only numerous , but diverse and
interrelated. Despite this variety, however , we find it interesting that the highest
proportion of respondents in each group named two closely related problems: the
complexity of the application process , and the inability of the homeless to understand
the process


A high proportion of ADMS grantees say that the transient lifestyle of many of these
individuals makes it diffcult to notify them of upcoming appointments , needed
documentation , or decisions. Long waits for appointments or approval are also a
problem , according to both ADMS and McKinney providers. They said many
homeless individuals , given their instabilty and transient lifestyle disappear " during
the long wait and fail to follow through.

According to a quarter of the McKinney respondents , welfare offices do not welcome
homeless individuals because they are particularly diffcult to deal with: look or act
strange , are dirty or unkempt , don t follow through , or cannot conform to procedures
or rules.

               ..., 
                                          , "




Some McKinney respondents also commented that Medicaid budget problems in
their States have made welfare offces alternately tighten and loosen eligibility
standards or cut staff, limiting the number of workers available to take applications.
Others complained that policies and procedures vary between offce , makig it
diffcult to understand how decisions are made or appropriately advise applicants.

Few providers , ADMS or McKinney, mentioned that the homeless do not want or
seek help. Those who did often qualified their remark by saying this is not because
the homeless are unwiling to get help, but because they are not " tuned in enough"
to recognize the value of Medicaid. Or, providers said health care is not the first
thing on their minds " compared to food or shelter. Some said that the mentally il
especially if not taking medication regularly, may not seek help due to paranoia or
fear that providers will hospitalize them.

Findig #6: A majority of ADMS grtee help the homeless apply for Medicad;
menta health grtees are more liely to help            th
                                             substace abuse grtees.

Seventy percent of the ADMS respondents said that they routinely try to help the
homeless get Medicaid; another 10 percent said they sometimes help. However, as
Figure 2 shows , a homeless individual is more likely to get help from a mental health
grantee than a substance abuse grantee. Of the 34 ADMS respondents who said
they did not help, or did not respond to the question , all but three were substance
abuse grantees.


        Do you try to get Medicaid for homeless
        individuals 'Who                   you think are eligible?
                    roaUnely

               .. lomeUmel



          DJ:. No r_pan..
                               0..      20..       .. 0..     60..          80"         1 DO'"
                                     M.ntal hUh grant...    E2 ... ..t all.... grant...
       N-168

Fiqure 2
Mental health respondents were more likely to name several ways in which they help
clients and to say that they tailor their assistance to the client , providing the greatest
help to the most dysfunctional. They were also much more likely to say that helping
get Medicaid for all clients is routine , especially as part of case management.
contrast , substance abuse grantees were more likely to say that they simply refer
homeless clients to a welfare office to apply; of the 17 who said that they only refer
14 were substance abuse grantees.

       How do you help homeless individuals
                 get Medicaid?
                      Re.er only
            Accompany to apply
        Accompany: follow up
         Help with paperwork
            Help: doca:zentatlon
                                         20""    40"     60""    eo..    100"    120""
                                          Mental health           Sab.t aba.e
                                          grantees                 grantees
    N-132
Figure 3

This same trend is apparent in Figure 3 , which portrays responses to a question
about how grantees help clients get Medicaid.
Although ADMS grantees said they help homeless individuals get Medicaid
McKinney grantees say that only " some " or " a few" mental health and substance
abuse providers in their areas help. Their opinions reinforce our conclusion that

mental health providers are the most likely to help; 15 of the 33 made comments to
this effect. . These comments include: (1) more mental health than substance abuse
providers are reimbursed by Medicaid , thus have a fiancial incentive      to help   clients
get it; (2) mental health providers often have case managers to help clients get
benefits but substance abuse providers do not; (3) some substance abuse providers
do not encourage clients to apply because they believe that getting public assistance
(including Medicaid) runs counter to their treatment philosophy of self- help or self-
sufficiency; or (4) it is easier to qualify for Medicaid on the basis of mental ilness
than substance abuse.
                     " "




Finding #7:   McKiey grantees suggested many ways in which problems accssing
Medicad for homeless indiduas ca be overcome.

McKinney respondents strongly advocate a number of measures to help this
population get on Medicaid. These include:

       Case management to shepherd homeless individuals through what they call an
        intimidating, degrading, " or " confusing " Medicaid application process. They
       call case management critical: " We need to advocate to push the client
       through because so much is riding on whether or not (the client) is eligible.
       They also strongly recommend stationing case managers at shelters as well as
       day programs that function as " one-stop shops " where they can help the
       homeless get Medicaid and all the other servces they need.

       Outreach by Medicaid workers to the homeless in shelters and on the streets.

       Cross- training between Medicaid workers and homeless providers. This should
       increase the sensitivity of Medicaid workers to the special characteristics of
       the homeless and help homeless providers understand Medicaid eligibility and
       the application process.



       Simplification of the application process could be done by shortening forms or
       processing times , and working with homeless providers locally to develop
       special procedures to expedite the process.

       Out-stationing Medicaid workers at shelters or " one-stop    shops   " where the
       homeless can receive a variety of servces in one place.

Findig #8: There is lited evidence of governent intiaties which have made
Medicad more avaiable , accssible, or appropriate for homeless indidua.

Few States appear to be delierately targetig homele      invils un Medicaid
Discussions with State Medicaid officials revealed few formal State Medicaid efforts
to specifically target homeless individuals , whether through special eligibilty criteria
optional servces or an expedited application process.



These respondents told us that mental health and substance abuse servces are
available to everyone who receives Medicaid , but they also said that there are
probably fewer substance abuse than mental health servces reimbursed by Medicaid.

However , some emphasized that their States are now focusing more attention on
expanding coverage for substance abuse services , in general.

Seven Medicaid officials reported linkage of some kind between their agency and
other State agencies. However , none of them mentioned any such collaborative
effort relative to the homeless. In each of these States , the link was with the State
mental health agency; only one was with the substance abuse agency. Some of these
respondents said that the State Medicaid agency is under the same umbrella as the
mental health agency; this , they said , facilitates coordination between the two
agencies in a general sense.



Few provirs said that a government   inittie ha le them to help homele
inivls get Medicaid
Only 18 percent of the ADMS grantees said that a State or Federal initiative has
influenced them to help homeless individuals get Medicaid. Most of them mentioned
a State initiative; the highest proportion were from Missouri , where 11 of 25 grantees
mentioned an initiative to expand substance abuse coverage , an emphasis on servng
the homeless , or Medicaid case management for the severely mentally ill.


Few McKinney respondents spoke of any government initiative which had led them
to try to help get their clients get Medicaid. Eight knew of Federal initiatives to
increase SSI outreach and enrollment or widen Medicaid access for children and
pregnant women. Only one mentioned a specific State homeless initiative.
                      RECOMMENDATIONS

This study points out that while Medicaid could be a valuable resource to homeless
individuals , at the very least in terms of providing access to primary care , a number
of factors limit its usefulness for this population.

One of the most significant barrers , we believe , is State eligibilty criteria. In 39
States , individuals must qualify for SSI in order to get Medicaid; yet our study on SSI
found many providers who believe that a small number of the homeless individuals
they serve are getting SSI. Furthermore , 12 other States use even more stringent
criteria. Thus we conclude that many homeless individuals may not even qualify for
Medicaid , greatly limiting its availabilty to this population.

Another factor which limits the usefulness of Medicaid is that State coverage of
mental health and substance abuse treatment , particularly the latter, is often lacking.
Our respondents Pbinted to a number of problems which affect the availabilty of
such servces in their areas. In this light   , a June 1991 report by the General
Accounting Office found that Medicaid generally limits coverage for substance abuse
treatment , and that multiple barrers prevent States from expanding such servces
under Medicaid.



We found little evidence that States are deliberately targeting this population under
Medicaid , whether through special eligibilty criteria or targeted servces. On the
local level , many providers see a need to assist homeless individuals in applying for
Medicaid , given the complexity of the process and the instabilty of such clients.
However, not all of them - especially substance providers - are providing this needed
assistance.

In making recommendations to HCF A about how these problems can            be addressed
. we are mindful that Medicaid is in reality 50 different State programs, and that
 States are allowed considerable flexibilty in setting forth the populations they wish to
 target and the methods for doing so. We know that the IMD exclusion is being
 examined both in Congress and by HCFA. We are also aware of concerns about
  expansion of the program in general. The Medicaid director recently testified against
  a bil proposing expanded coverage specifically for the homeless , on the basis that
 Medicaid is not designed to address problems of specific groups in a piecemeal
  manner.

For these reasons ,we are not recommending that HCFA expand Medicaid eligibility
or coverage for this population. Our focus , instead , is to suggest ways that HCF A
can work with States and other Federal agencies to help make Medicaid more
available and accessible to this population generally. We should also note that we
have made recommendations to SSA about helping eligible homeless individuals get
 SSI. Given theclose association of these two programs , we believe that these
 recommendations can also increase access to Medicaid for such clients.

 The thrust of our recommendations is threefold. Through them , we are asking
 HCFA to support: (1) Departmental and inter- Departmental initiatives to increase
 servces for homeless individuals , (2) the development of similar initiatives by States
 and (3) the development of special strategies by local providers , including welfare
 offices , to expand access to Medicaid for homeless individuals with mental health
 alcohol , and other drug problems.

 Recmmendation 1:     HCF A should work with the Soal        Administration
                                                             Sety

 (SSA) to develop a joint strtegy to increa..   acc
                                                  to Medcad for eligible homeles
 indidua.
 Our reports on both Medicaid and SSI highlight that this homeless population needs
 help to overcome the many problems they face in accessing these programs.
 have recommended to SSA that they work with other agencies in a variety of ways to
 help the homeless overcome problems related to accessing SSI. However, Medicaid
 and SSI are closely tied in most States. Thus we believe that a joint HCF A- SSA
 strategy to assist this population would have considerable impact in widening access
 to both programs for them.

The goal of this joint strategy should be to help local welfare offces and SSA district
offces work more closely together. It could address: publicizing Medicaid to
homeless individuals , joint outreach , cross- training, expediting the application process
and establishing formal linkages or coordination with local providers who serve the
homeless.

Recmmendation 2: HCF A should consult with the Public Heath Servce (PHS)
and SSA to develop models for States and loc provders to us to help homeles
indidua apply for Medcad, and then dimiate thes models widely.
To help homeless individuals apply for Medicaid , HCF A, in cooperation with PHS
and SSA, should develop models for formal linkages between local welfare offces
SSA district offces , and other providers who serve the homeless. These models
should address , at the very least: (1) publicizing Medicaid , (2) outreach , (3) an
expedited application process , and , (4) cross- training, whereby welfare workers and
SSA district office staff learn effective ways of dealing with this population , and PHS-
funded providers learn more about Medicaid eligibilty guidelines , the application
process , and servces in their States.

. The SSA should be included in developing such models given the close tie between
 Medicaid and SSI. As for PHS , at least four agencies should be involved: (1) the
National Institute on Alcoholism and Alcohol Abuse , which administers McKinney­
funded research demonstration grants; (2) the National Institute of Mental Health
which also administers such grants as well as the Projects for Assistance in Transition
from Homelessness program for the homeless mentally il and dually diagnosed; (3)
the Offce for Treatment Improvement , which administers the ADMS block grant;
and (4) the Health Resources and Servces Administration , which administers Health
Care for the Homeless.

All three agencies should disseminate these models widely through their own
networks.

Recmmendation 3: HCF A should provde technca           asistace to States to promote
the development of State strtegies and   liges    designed to us Medcad more
effecely to serve th population.
We believe that States could use Medicaid more effectively to serve homeless
individuals - for example , using optional servces to expand community-based
treatment , developing model application forms or other ways to expedite the
application process , or developing a " freedom of choice waiver " targeted at them.

Also , many providers of mental health and , especially, substance abuse treatment
lack a good understanding of Medicaid eligibilty, coverage of treatment , and other
policies that affect homeless individuals. Thus , they may not know about the model
application form that HCF A is developing which could be adapted for homeless
persons. Or, they may make incorrect assumptions about what Medicaid policies
allow; they may erroneously assume that States are precluded from out-stationing
Medicaid workers , havig workers help in the initial processing of applications , or
developing systems to track whether homeless people receive the Medicaid servces
for which they qualify. 

We recommend that HCFA undertake a national effort to encourage State Medicaid
agencies to provide technical assistance and training to State mental health and
substance abuse agencies. The goal of this effort should be three-fold: (1) to
increase their understanding of Medicaid and how it can be used to serve this
population; . (2) to encourage these agencies , including the Medicaid agencies , to
develop strategies to use Medicaid more effectively to serve them; and (3) to
encourage them to develop formal linkages for this purpose.

As part of this effort , HCF A regional offices should do everyhing possible to
encourage the other State agencies to disseminate information about Medicaid
through their networks of local treatment providers.
Recmmendation 4: HCF     A should us the Interagency Counci on the Homeles as
a vehicle to provde technca asistace to other Federa agencies and McKiey
provders. Technca asistace should encoure          spe
                                                     strtegies and promote
formal liges which wi make Medcad more accible to homeles indidua.

Many other Federal agencies receive McKinney funding to serve the homeless. The
Interagency Council on the Homeless provides a forum , both on the Federal and
regional level , for these agencies to discuss ways to better serve the homeless.
Besides bringing Federal agencies together , the Council holds a biennial conference
in each region for providers of all kinds , to promote better understanding and
coordination on behalf of the homeless.



We recommend that HCFA use the various forums of the Interagency Council , to
pursue the activities outlined in the recommendations above with regional staff of
other Federal agencies and McKinney-funded providers. The goal should be to
increase their knowledge of Medicaid and promote special strategies and formal
linkages between Medicaid and other servce providers , at the State and local level.
The ultimate purpose of these activities is to increase access to Medicaid for eligible
homeless individuals.

COMMNT
The Assistant Secretary for Planning and Evaluation, HCF A and SSA commented on
this report; the full text of their comments is in Appendix C. We also received
comments from PHS staff. We made editorial changes to the text of the report in
response to all of these comments and wish to thank all those who commented.

In the text of their comments , HCF A concurred with all but the second
recommendation (notwthstanding their cover memorandum). They agreed with the
intent of the second recommendation but raised concerns that they lacked sufficient
staff to carry it out. Also , SSA suggested that we include them , along with PHS , in
Recommendation 2, to more effciently and effectively coordinate Departmental
resources. In response ,we revised the second recommendation to include both PHS
and SSA We also modified it to recommend consultation between the agencies as
opposed to a formal Memorandum of Understanding. We believe that this will
accomplish the intent of the recommendation , which remains unchanged.

We also made some revisions to the third recommendation. Although HCFA
concurred with it , and described some of their current activities in this connection
we were not convinced that these activities alone constitute an adequate response to
the intent of the recommendation. We revised it to reflect these activities but also
describe what we believe would be a better targeted technical   assistance effort.
believe that this recommendation as now written is better focused and will also not
be overly burdensome to HCF A.
                            APPENDIX A

GENERA COMMNT REGARING 1H DATA
We collected both qualitative and quantitative data for this inspection. The qualitative
data presented in the reports is not weighted. Quantitative ADMS data was used to
make national projections (described later in this Appendix) based on weighted State
averages for our sample States. For the most part , data collected from ADAMHA
States and respondents was for 12 month periods representing fiscal years 1989 or
1990.

In general, data from States and respondents regarding ADMS expenditures was very
difficult to obtain as well as extremely variable. They rarely kept this data in a
complete or uniform manner. Also , State fiscal years varied , as did those of
respondents.

STATE SAMLE SELECTON

We used a stratified , multi-stage methodology in choosing States , since we intended to
make national projections with the quantitative data. We wanted to talk to ADMS
grantees and certain McKinney- funded grantees (described later in the Appendix),
who could discuss Medicaid and SSI. Thus we divided the 50 States into two
categories: those with both ADMS grantees and more than one McKinney grantee
and those with ADMS grantees and one or no McKinney grantees. (As noted in the
Methodology section , McKiney respondents were Health Care for the Homeless
grantees or grantees of research and demonstration projects funded by ADAMHA.
We selected six States from the first category and four States from the latter. The
sample States from each category were selected , with replacement , based on
probabilty proportional to the estimated FY 1991 ADMS funding.

The table lists the sample States , estimated amount of ADMS 1991 funding, and the
States ' percent of total ADMS funding. The sample represents a signifcant portion of
total ADMS funds.


                     ESTIMTED ADMS               PERCENT OF TOTAL
        STATE        FUS FOR FY 1991             ADMS FUNDS

        California   $151 048 450                13%
        Hawaii           077 746
        Ilinois          484 994
        Maryland         274 979
        Missouri         789 494
        New Jersey       169 435



                                          A ­

        New Jersey        169 435
        New York      103 642 170
        Ohio              646 814
        Oregon            583 566
        Texas                 804
Total                $559 530 452              47%

Total FY 1991
Estimated
ADMS Funding           187 357 962


SAMLIG MEllODOLOY                FOR ADMS REPONDEN

We intended to sample 30 grantees from each State which would represent a
proportional mix of mental health and substance abuse grantees. Respondents were
program directors . or managers. The number of grantees sampled in each of these
two categories was determined by the proportion of FY 89 mental health ADMS
funding to substance abuse funding in each State. This   was the most recent year for
which States had this information. We contacted the 10 States and asked for the
amount of ADMS funds they received in FY 1989 , and the total amount that went to
mental health grantees and substance abuse grantees. In addition , we asked for a
listing of the mental health grantees and substance abuse grantees and the amount of
ADMS funding each received.

In most States , mental health and substance abuse grantees were then selected with
probability proportional to the amount of the ADMS grant received. In instances
where the grant money was given to counties , we selected six counties proportional
to mental health and substance abuse funding. We then selected five grantees
within each county with probabilty proportional to the amount of the ADMS grant
received.

There wer some exceptions to these two basic methodologies. In those States
where the amount of ADMS grant money for 1989 was not readily available , we
chose a simple random sample of grantees. In instances where a grantee
subcontracted over 50 percent of its ADMS funds , we asked the grantee to identify
the two subgrantees who received the largest proportion of grant funds , whom we
then intervewed.

Several grantees were dropped because they were no longer receiving ADMS funds
in FY 1991. Our final sample consisted of 224 grantees in 10 States. There were 95
mental health and 129 substance abuse grantees. The subs amp ling in each State   was
independent of that conducted in any other State.




                                        A ­

This methodology enabled us to capture , in most cases , a significant portion of
States ' ADMS funds in our sample. The following table gives the percent of ADMS
mental health and substance abuse FY 1989 funds sampled in each State.

                      PERCENT OF SAMPLED                  PERCENT OF SAMPLED
                      ADMS MENTAL HEALTH                  ADMS SUBSTANCE ABUSE
                      FUNDS TO TOTAL STATE                FUNDS TO TOTAL STATE
                      ADMS MENTAL HEALTH                  ADMS SUBSTANCE ABUSE
 ST ATE               FUNDS                               FUNDS

California            24%                                 12%
Hawaii                82%                                 54%
Ilinois               62%                                 46%
Maryland              41%                                 35%
Missouri              77%                                 39%
New Jersey            45%                                 22%
New York              12%                                 28%
Ohio                  12%                                 44%
Oregon                68%                                 39%
Texas                 78%                                 14%

We spoke with sampled respondents by telephone. Our first objective was to learn if
the grantees served    homeless individuals. We did not pursue further questions with
the 56 grantees who said they do not serve the homeless. We discussed the
availabilty, accessibility and appropriateness of their servces and Medicaid and SSI
for this homeless population, with 168 grantees who did serve them. We also asked
respondents to provide basic data on their total agency budget and ADMS grant
clients served , including homeless clients , and Medicaid reimbursement.

ADMS PROJECTONS


We made two national projections in this inspection: (1) the percent of ADMS going
to grantees o that told us that   homeless individuals were among their served
population , and (2) Medicaid funds as a percent of total budget of the grantees.
The projections are based on what these ADMS respondents told us. In some cases
they could not give us numbers , or could only give estimates. The Data Verification
Sheet we sent to respondents prior to calling them is in Appendix B.

The definition of " homeless " we asked respondents to use in providing this
information was: "A person who is not a member of a homeless family, and who
lacks stable housing (including a person whose primary residence during the night is
a supervsed public or private facility that provides temporary living accommodations
or a person who is a resident in transitional housing.




                                             A­
These projections are based upon unbiased estimates derived from the sample of
grantees within each State. Estimates of the totals , and the variance associated with
each total , accounting for the sub-sampling within each State , were calculated using
methods described by Cochran . Given these totals , the percentages , as ratios , were
easily derived.

The results of these estimates are presented , by State and overall , in the following
tables.

                           Percent of ADMS Money Associated with
                                      Grantees Servng Homeless

                                   Mental Health
            Substance
                                   Grantees                 Abuse Grantees

          NEW JERSEY               100.                      64.
          MISSOURI                  92.                      91. 7%
          CALIFORNIA                45.                      77.
          OHIO                      75.                      83.

          ILLINOIS                  66.                      93.3%

          NEW YORK                                           64.

          Strata Avg                71.5%                    72.4%

          TEXAS                     82.4%                    75.
          MAYLD
                    87.5%                   100.
          OREGON                    98.9%                    84.
          HAWAII                    38.                      60.

          Strata Avg                72.4%                    74.

          Overall A vg
             71.                      75.

          Std. Err.
                21.8%                    21.8%
          Precision                 49.                      47.
          L 90% CI
                 35.                      39.
          U 90% CI                 107.                     111.6%




    1 Cochran ,        Wiliam G.   , (1977)      Sampling Techniques . John Wiley & Sons , New
York , Sec. 11.9 , pg. 306.
    2 The precision is defined as the semi- width             of the confidence interval as a
          percent of the estimated            mean.

                                                      A­
Because of the extreme variabilty in the data , the upper 90 percent confidence limit
exceeds 100 percent.   Logically, the upper limit should    be truncated at 100 percent.
The coefficient of variation for Mental Health programs is 30 percent and that for
Substance Abuse programs is 29 percent.


                    Medicaid Funds as a Percent of Total Budget
                                by Type of ADMS Grantee



                    NEW JERSEY            18.9%

                    MISSOURI               8.1%            13.

                    CALIFORNIA            16.

                    OHIO                 25.               12.

                    ILLINOIS

                    NEW YORK                               35.


                                          13.              13.

                    TEXA                   1.6%             1.8%
                    MAYLD                 15.               0.3%

                    OREGON               28.3 %

                    HAWAII


                                                            1.7%

                    Weighted Avg

                    Std Err               1.82%               87%
                    Precision            33.           25.5 %
                                         20.           15.
                    L 90% CI

                    U 90% CI             12.

This data demonstrates less variabilty than that in the ADMS funds data. However
the coefficient of variation is below 10 percent for only one of the estimates , the
percent homeless among Mental Health grantees.




    3 The precision is defined as the semi-width of the confidence interval as a
      percent of the estimated mean.

                                         A­
SAMLIG MEllODOLOY FOR OrnR REPONDENT
McKi Grantes
The 33 McKinney grantees in our sampled States included 25 Health Care for the
Homeless grantees and 8 other providers who have received McKinney research
demonstration grants from either the National Institute for Mental Health or the
National Institute on Alcohol Abuse and Alcoholism. We spoke by telephone or in
person with these respondents. The focus of our discussions was the availabilty,
accessibility and appropriateness of Medicaid and SSI. We were especially interested
in comparing their perspectives - as providers whose mandate is to serve the
homeless - with those of ADMS grantees , who have a much broader mandate.

Socl Secu Ditrt Ofe Respond
These 25 respondents included district managers , assistant district managers and
claims and servce representatives in district offices near the McKinney grantees in
the sample. We discussed their experiences servng this population, their opinions
about how to enhance access to SSI for them , and their views on the role of SSI in a
long- term   solution to homelessness.


State Medaid Staff

For background ,  we reviewed portions of the Medicaid plan for each of the
sample States , looking at eligibilty criteria and servces relevant to homeless mentally
il or substance abusing individuals. We then talked by telephone with 16 Medicaid
staff in the 10 States to clarify our understanding of eligibilty and servces , and to
ask if there were any special State Medicaid policies , procedures or special initiatives
which affect this population.




                                          A ­

                               APPENDIX 

                             DATA VERICATION SHEET

Please have the following background information available for our telephone
discussion; do not return it to us by mail. If possible, we want this data for Federal
Fiscal year (FFY) 1990. However , if you maintain data on a State fiscal year (SFY)
or calendar year instead ,   please tell us when we call.

Please provide only the information that you maintain in your existing management
information system; otherwse , do not generate it specifically for us. We realize that
you may not know or keep some of this information. In this case , we ask that you
provide your best estimate , if you are comfortable with doing so. If not , just tell us
you don   t know.


For FFY. SFY or Calendar 1990 ACTUAL or                     ESTIMATED


1. Total agency budget:

2. Total ADMS block grant
funds received:

3. Total McKinney funds
received:

4. Total clients served by your
agency (unduplicated count; all
programs or servces):

5. Total clients served by your
agency (unduplicated count)
with ADMS dollars:




    1 Alcohol ,   Drug Abuse and Mental Health Servces Block Grant
             ........................




                                              DATA VERICATION SHEET

                                                        PAGE TWO

6. Total 
      homeless individuals
over 18 served by your agency

( unduplicated count) .........

             a. # mentally               il (no

             substance abuse problem):

             b. # substance abusers (not

             mentally il):
             c. # dually diagnosed
             (both problems)



7. Total 
     homeless individuals over
       served by your agency

with ADMS dollars (unduplicated
count)
             a. # mentally              il (no

             substance abuse problem):

             b. # substance abusers (not

             mentally il):
             c. # dually diagnosed

             (mentally il and

             substance abusing)

8. Total Medicaid reimbursement
OR percent of total agency budget
that was Medicaid reimbursement

9. Number OR percent of total
clients served by your agency
who were on Medicaid

10. Number OR percent of total 
                    homeless
individuals over 18 served by
your agency who were:
                                        on Medicaid:



                                        on SSI:





       2Person who is not a member of a homeless family, and who lacks stable housing
(including a person whose primary residence during the night is a supervsed public
or private facility that provides temporary living accommodations , or a person who is
a resident in transitional housing.

APPENDIX 





 AGENCY COMMNT




      C -

..                                           &.


                                                                                       Health Care
                 DEPARTMENT OF HEALTH             HUMAN SERVICES                       Financing AdmInistration


     .lh41G
                                                                                       Memorandum
                     DEC I 9 1991
       Date
                 Gail R. Wilensky, Ph. D.   cpJ
       From      Administrator

       Subject   OIG Draft Report - " Medicaid and Homeless Individuals " (OEI- 05- 91- 00063)

                 Inspector General
                 Office of the Secretary





                    We have reviewed the subject report which examined how Medicaid is used to
                 serve homeless individuals with mental health, alcohol, or other drug problems. This
                 report is one segment of a review of three major mainstream programs in the
                 Department which could serve homeless individuals: Medicaid; the Alcohol, Drug
                 Abuse, and Mental Health Services block grant (OEI 91-05- 00062); and
                 Supplemental Security Income (SSI)(OEI 05- 91- 00060).

                    This report found that access to Medicaid may be lited for many homeless
                 individuals, especially given the close tie between eligibilty for 55I and Medicaid in
                 most States. The report contains four recommendations which ask the Health Care
                 Financing Administration (HCF A) to support      Deparmental and inter- Departmental
                 initiatives to increase services for homeless individuals , as well as the development of
                 similar initiatives by States and local providers. HCFA agrees with two of the
                 recommendations , but has some concerns with the other two. Our specific
                 comments on each recommendation are attached, as well as technical comments             on
                 the report.

                    Thank you for the opportunity to review and comment on this draft report.
                 have no comments on the other two draft reports. Please advise us whether         you
                 agree with our position on the report s recommendations at your earliest
                 convenience.

                 Attachment
            Comments o             h Care financing Aqministration (
                               on the OIG Draft Report ­
                           Medicaid and Homeless Individuals
                                      05- 9+- 00063)


Recommendation

HCF A should work with the Social Security Administration (SSA) to develop a joint
strategy to increase access to Medicaid for eligible homeless individuals.


Response:

We concur with this recommendation. Since the Supplemental Security Income
program is closely linked to the Medicaid program, a joint strategy could be
developed with SSA to increase access to Medicaid for eligible homeless individuals.

Recommendation 2:

HCFA should sign a Memorandum of Understanding with the Public Health Servce
(PHS) to develop models which States and local providers can use to help homeless
individuals apply for Medicaid , and should disseminate these models widely.

Response:

We agree with the intent of this recommendation. Unfortunately, we do not have
the staff resources that would be needed to implement the recommendation and
develop the recommended models. We would , however , be able to consult with
PHS regarding this activity.

Recommendation 3:

HCF A should provide technical assistance to States to support or encourage the
development of strategies to use Medicaid more effectively to serve this population.

Response:

We concur with this recommendation. We already provide technical assistance to
States to support the development of strategies to use Medicaid more effectively.

The following options are currently available to States and provide examples of our
assistance:
Page 2




          A model Medicaid application form is being developed in response to
          section 6506(b) of the Omnibus Budget Reconcilation Act 1989 for use        by
          individuals who are not receiving cash assistance under Part A
          title IV of the Social Security Act (the Act) and who are not
          institutionalized. Use of this model application is optional.
          While the development of this model application does not
          specifically target the homeless population, a State may adopt
          as part of its State Medicaid plan. The model application form
          should contain all the necessary criteria to make it less
          burdensome , and may make Medicaid more available and
          accessible.

          States could develop a section 1915(b) of the Act " freedom of choice
          waiver. !' The waiver could specifically target the homeless   population with
          chemical dependency problems and provide for a priary          cae case
          manager.

          There is no Federal requirement which precludes States from
          outstationing workers at specific areas where the homeless population is
          high. Workers could assist in the initial processing of applications.
          Further, States could create a process that ensures clients are tracked
          after they complete the application to ensure that they receive the servces
          for which they are eligible.

          A significant portion of homeless are substance abusers.
          ongoing function of the Medicaid Bureau , acting in accordance
          with the National Drug Control Strategy, is to develop materials
          to assist States in providing substance abuse servces under the
          Medicaid program. In fiscal year 1992 the Medicaid Bureau
          plans (1) to sponsor a national conference providing traing to
          regional office staff on Medicaid eligibilty, coverage,
          reimbursement and Federal financial participation issues
          involved with substance abuse, chemical dependence, and
          mental health and (2) to publish a document articulating
          Medicaid policy on chemical dependency, target populations
          and the Institutions for Mental Disease exclusion.

Recommendation 4:

HCFA should use the Interagency Council on the Homeless as a vehicle to provide
technical assistance to other Federal agencies and McKinney providers. Technical


                                        C-4

Page 3


assistace should encouragespecial strategies and promote formal liges which
will make Medicaid more accessible to homeless individual.

Response:

We concur with thi   recommendation. We   recogne that access to medica cae for
the homeless is very importnt. Use of the Interagency Council on the Homeless
can provide the techncal assistance to make Medicad more accessible to ths
population.
Technical Comments:

            H the outreach effort suggested in ths report are   successfu Medicad
            enrollment and expenditures wi increase. It would be helpfu if the fial
            report could address the issue of what the additional costs might be. In
            addition, it is not clear whether the Offce of Management and Budget
            would require offsetting savigs to ensure that spending stays withi the
            baseline under the Budget Enforcement Act.

            The report cites an estimate of $200 mion for current Medicad
            expenditures for the homeless. The fial report should clar whether
            this estimate includes both Federal and State exenditures.
                                       &.


         DEPARTMENT OF HEALTH               HUMAN SERVICES	              Soial Seuri Adminiatration

         Refer to:	
                                                                          Memorandum
Date:
                    tI 26 19


From:	   Gwendolyn s.
         Commiss ioner


Subject: Office of Inspector General Draft Report, "Medicaid and
         Homeless Individuals" (OEI-OS-91-00063) --INFORMTION

To:	     Mr. Richard P. Kusserow
         Inspector General


                               our ' response to  the subj ect report.   If we may be
         of furter assistance,
         Attached         is

                                             please let us know.

         Attachment:
         SSA Response





                                                       C-6

.-.I

       COMMS OF TH SOCIAL SECUITY ADMINISTRTION ON TH OFFCE
       INSPECTOR GENERAL DRAFT REPORT. "MEDICAID AND HOMELESS INDIVIDUALS"
       (OEI-05-91-00063 )

       We have reviewed the Office of Inspector General (OIG) draft

       report, and although its recommendations were addressed to the

       Health Care Financing Administration (HCFA), we have the following

       comments and observations to make.


       The draft report notes on paqes 2 and 7 that homeless individuals
       must be eligible for Supplemental         Secuity
                                                  Income (SSI) based on a
       determination that they are disabled in order to be derivatively
       eliqible for Medicaid.  This statement is        inaccuate.
                                                              Homeless
       individuals may be eliqible for SSI, and thus Medicaid, on the
       basis of age or blindness as well as on the basis of disability.
       Fuermore ,   individuals may apply for Medicaid directly with the
       appropriate State agency, although the definition of disability for
       Medicaid eligibility is the same as used in the SSI proqram, in all
       but thee      states which use more     restrictive definitions. Moreover,
       in many States, the same state Aqency will         mae the determination
       for both the SSI and the Medicaid proqram.

       OIG' s second recommendation call. for HCFA to sign a Memorandum of
       Understanding (MOU)  with the         Pulic
                                            Health Service (PHS) to
       (1) develop models which states and local providers can use to help
       homeless individuals apply for Medicaid, and (2) disseminate these
       models widely. We support this recommendation and believe that the
       Social Secuity Administration (SSA) should also be a parter in
       this collaboration. (OIG Draft Report, "Supplemental         secuity
       Income for Homeless Individuals" recommends that SSA work with PHS
       to institute collaborative outreach and application processinq
       proj ects .
       We sugqest that OIG expand the recommendation to read that "HCFA

       should sign a MOU with the PHS and SSA ... . for Medicaid and

       SSI ... . A memorandum that includes SSA as one of the signers

       could more efficiently and effectively coordinate the resources of

       all three agencies to improve homeless individuals' access to

       available and appropriate benefits and services.
         ,..                                                      , "                                      ~~~~~~                               / =




                       DEPARTMENT OF HEALTH.. HUMAN
                                                                              SERVICES
                                                                                                                    Of of th Se"
'''IG

                                                                                                                 .u'.shington , D. C.   2021.
                                                                              NO 2 2
                                                                                          199                    PDIG




                TO:                      Richard P. Kusserow , Inspector General 

                FROM:
                                         Evaluation
                                         Assistant Secretary for Planning and                                   AIG-MP

                                                                                                                OO/IG

                                                                                                                USEe

               SUBJECT :   OIG Draft Reports: " Supplemental IncomeDATE
                           Individuals" Alcohol, Drug Abuse and Mental
                           Services for Homeless Individuals"

                                                                       for Homeless

                                                                            Health
                                                                                                                            SE

                                                                                                                                             'qI
                                        Homeless Individuals. 

                                                               , and " Medicaid and

                                                  1'0-0;/91-                                     OcJt:&o
                                                 OG/- OS;-9/-ooo                   0",                          OEI- 0,-

                                                                                                                                  po    Od

               This memorandum provides comments on the three subject draft

               inspection reports which examined the availability, accessibility

               and appropriateness of the SUpplemental Security Income Program

               (SSI), the Alcohol, Drug and Mental Health Services 

               grant , and Medicaid programs for homeless individuals(ADMS)
                                                                        who have
                                                                              block

               mental health, alcohol or other drug 

                                                                                         problems.
            In general, the assessments found
            provide some , but usually not specialized,       1)services
                                                                 most ADMS
                                                                         to grantees
                                                                             homeless
                                                                                       that:
           people; 2) the type and adequacy of those services are unclear
           due to the lack of data on the quantity of services or their

           impact; 3) access to SSI and Medicaid programs is limited

           al though special efforts are now being made by most SSA Field

           offices to increase access to
           program providers and SSA field office       staff recognize
                                                 Another finding          SSI.
                                                                         is that
                                                                             that it is

                                                                                  most

           especially difficult for the mentally ill or substance abusing

           population to access SSI and Medicaid programs.


           Overall, the findings 


         what we are learning from these
                                     other assessments
                                            studies and are consistent  with

                                 in
                                                         program  

                                                                  monitoring,
         particularly with respect to the need for improved linkage      and

         coordination among different levels of 

         government . agencies, and within local service
                                                   government,  between

                                                           systems.
         Unfortunately, the data available for these assessments did not

         allow for more specific findings concerning 

                                                         numers
         quality of services provided , or for descriptions    of
                                                                  served, the

         generalizable models.
                                    successful,
        Nevertheless ,the findings and recommendations from these three
        assessments will help shape a current initiative to simplify

        programs and make them more accessible to severely mentally 

        homeless individuals. Your
                                    staff
        Task Force on Homelessness and    has Mental
                                       Severe alreadyIllness
                                                      briefedand
                                                              theits

                                                                  Federal
                                                       ill

        outside Advisory Committee regarding these assessments.
        Force will recommend a plan of action                                                                            The Task

        of January, 1992.                                                                   tb
                                                                                                                          the end



                                                                        C-8
                                                     . .




Page 2 - Richard P. Kusserow


I have a few additional comments listed below and editorial

comments written in the attached copies of these reports.


Alcohol Drua and Mental Health Services for Homeless Individuals


     The background section on page i should include a sentence

     or two in the discussion of the McKinney Act programs, on

     the Projects for Assistance in Transition from Homelessness

     (PATH) program, its purpose, and a clarification that while
     states award most of their PATH funds to ADMS grantees,
     those funds are not included by grantees that report
     providing services to the homeless mentally  ill.
     A statement in the background section indicates that the
     ADMS dollars spent for substance abuse treatment as a
     portion of state expenditures for this purpose is unknown.
     We understand that as of 1990, there is an indicator in the
     National Drug and Alcohol Treatment utilization Survey that
     provides this information.

     In the findings section on page 4, the third paragraph under

     finding '1, this statement should be reworded to clarify

     that the dollars referred to go to grantees that  use an

     unknown but Drobablv small. Dortion of their grants to serve
     this population. One could interpret the current statement
     to mean that over 70% of their block grant funds serve this
     population.
     Appendix A, pages 4 and 5 contain very low percentages for

     New York state ADMS funds that go to grantees serving the

     homeless, and the extent to which ADMS grantees in New York

     state seek Medicaid reimbursement for services. These
     estimates are so at odds with those for other states in the

     sample and with New York I s usual participation in sU.
       ograms that you may wish to re-check them.


SUDDlemental Securi tv Income and Medicaid for Homeless
Individuals
     The same data issue concerning New York state de cribed
     above for Appendix A of the ADMS Report applies to Appendix
     A of the reports on SSI and Medicaid as well.
     On page iii of the Executive Sumary, we suggest adding a

     recommendation to ensure that a national survey of the

     homeless population being planned for 1992/1993 incl de the

     proportion receiving SSI benefits.
Page 3 - Richard P. Kusserow


    The ' description of the targeted federal response to
    homelessness on page 1 of all three reports would be more

    complete with the addition of the following sentence after

    the second sentence of the fourth  paragraph:   "An additional
    $200 million in non-McKinney federal funds is targeted at

    the homeless population.     Total spending in these targeted

    programs will rise to over $1 Billion in FY 1992.




                           Martin
